No. TBA
In The
Supreme Court of the United States

ROY HOWARD MIDDLETON, JR.
Petitioner,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Mark S. Inch
and
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respondent(s).
APPENDIX
Appendix A

Order of the Eleventh Circuit Court of Appeal denying a certificate of
appealability

Appendix B

Order of the Eleventh Circuit Court of Appeal denying motion for
reconsideration

Appendix C Order from the District Court of Appeal denying petition for writ of
habeas corpus

A-ii

No. TBA
In The
Supreme Court of the United States

ROY HOWARD MIDDLETON, JR.
Petitioner,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Mark S. Inch
and
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Responden t(s).

Appendix A

A-iii

Case: 19-12380

Date Filed: 12/03/2019

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12380-B
ROY HOWARD MIDDLETON,
Petitioner-Appellant,
versus

SECRETARY DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Florida
ORDER:
Roy Middleton, a Florida prisoner serving a 35-year sentence for second degree murder
with a firearm, filed this pro se 28 U.S.C. § 2254 petition, raising three claims:
(1) the state appellate court should have remanded his case for a new trial based
on a double jeopardy violation, instead of remanding with instructions to
reduce his conviction to a lesser included and re-sentence him accordingly;
(2) trial counsel failed to object to a jury instruction on foe forcible felony
exception to self-defense, which negated his sole defense; and
(3) trial counsel failed to file a writ of prohibition after foe trial court denied his
motion to dismiss the indictment based on double jeopardy.
The district court denied foe petition and a certificate of appealability (“COA”), which
Middleton now seeks in this Court, To obtain a COA, a petitioner must make “a substantial
showing of the denial of a constitutional right ” 28 U.S.C. § 2253(c)(2). The petitioner must
show that reasonable jurists would debate whether (1) the motion states a valid claim of the

Case: 19-12380

Date Filed: 12/03/2019

Page: 2 of 3

denial of a constitutional right, and (2) the district court was correct in its procedural ruling
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
If a state court has adjudicated a claim on the merits, a federal court may grant habeas
relief only if the decision of the state court (1) “was contrary to, or involved an unreasonable
application of, clearly established [federal law, as determined by the Supreme Court,” or
(2) “was based on an unreasonable determination of the facts in light of the evidence presented in
the [s]tate court proceeding.” 28 U.S.C. § 2254(d)(1), (2). The “unreasonable application”
clause permits federal habeas relief if the state court correctly identified the governing legal
principle from Supreme Court precedent, but unreasonably applied that principle to the facts of
the petitioner’s case. Borden v. Allen, 646 F.3d 785, 817 (11th Cir. 2011).
In Mathews, the Supreme Court held that reducing a defendant’s concededly jeopardybarred conviction to a conviction that concededly was not jeopardy-barred was an adequate
remedy for a double jeopardy violation in circumstances like this case. See Morris v. Mathews,
475 U.S. 237, 245-46 (1986). The Supreme Court further held that, when a jeopardy-barred
conviction is reduced to a conviction for a lesser-included offense that is not jeopardy-barred, the
burden shifts to the defendant to demonstrate a reasonable probability that he would not have
been convicted for the non-jeopardy-barred offense absent the presence of the jeopardy-barred
offense. Id. at 246-47.
In Claim 1, Middleton complained about three specific pieces of testimony presented at
trial, all of which, he argued, were admitted for the sole reason of proving first-degree minder,
the jeopardy-barred offense: (1) he and the victim had been involved in an argument; (2) he had
pointed a gun at two people before the shooting; and (3) before the shooting, he tried to sell
someone a car, stating that he needed the money because he was leaving the country.

2

Case: 19-12380

Date Filed: 12/03/2019

Page: 3 of 3
‘•'v:

He failed to show prejudice with respect to the first two pieces of testimony because they
were admitted as “inextricably intertwined” with the events of this case, and, contrary to
Middleton’s argument, they were not admitted to prove the intent element of the first-degree
murder charge. See Wright v. State, 19 So. 3d 277, 292 (Fla. 2009). With regard to the final
piece of testimony, he failed to show prejudice, even if that testimony was admitted to prove
/'

•

premeditation, as, on cross-examination, the witness conceded that it was Middleton’s girlfriend,
not Middleton, who Supposedly sought to leave the country. Moreover, as the state court noted,
‘

Middleton admitted to shooting the victim, fleeing the scene, and disposing of the gun.
!

Accordingly, a CQA is not warranted on this claim.
To succeed on a claim of ineffective assistance of counsel, a defendant must show that
<

there is a “reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland v. Washington, 466 U.S. 668, 687, 694
(1984). Here, Middleton failed to establish prejudice for Claim 2 because the evidence at trial
independently negated Middleton’s self-defense theory. Thus, he could not show that the
outcome at trial would be different, had the trial court not given that instruction.
Finally, Claim 3 was unexhausted and not “substantial” because Middleton failed to
demonstrate prejudice. See Martinez v. Ryan, 556 U.S. 1, 14 (2012). He failed to show a
reasonable probability of acquittal in light of all the other evidence that supported his guilt and
undermined a theory of self-defense. Accordingly, and in light of the above, this COA motion is
DENIED.
/s/ Kevin C. Newsom
UNITED STATES CIRCUIT JUDGE

3

\

No. TBA
In The
Supreme Court of the United States

ROY HOWARD MIDDLETON, JR
Petitioner,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Mark S. Inch
and
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respondents).

Appendix B

A-iv
\

Case: 19-12380

Date Filed: 03/20/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12380-B
ROY HOWARD MIDDLETON,
Petitioner-Appellant,
versus

SECRETARY DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Florida
Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Roy Middleton has filed a motion for reconsideration of this Court’s December 3, 2019,
order, denying a certificate of appealability, following the denial of his petition for a writ of
habeas corpus, 28 U.S.C. § 2254. Upon review, Middleton’s motion for reconsideration is
DENIED because he has offered no new evidence or arguments of merit to warrant relief.

\

No. TBA
In The
Supreme Court of the United States

ROY HOWARD MIDDLETON, JR
Petitioner,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Mark S. Inch
and
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Responden t(s).

Appendix C

A-v

Case 3:17-cv-00261-MCR-EMT Document 36 Filed 05/23/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
ROY HOWARD MIDDLETON
CASE NO. 3:17-CV-261 -MCR-EMT

VS

SECRETARY DEPARTMENT OF
CORRECTIONS
JUDGMENT
Pursuant to and at the direction of ihe Court, it is
ORDERED AND ADJUDGED that the Petition for Writ of Habeas Corpus is
DENIED.
JESSICA J. LYUBLANOVITS
CLERK OF COURT
Mav 23. 2019
DATE

Is/ A’Donna Bridges
Deputy Clerk: A’Donna Bridges

